FEDERAL ELECTION COMMISSION

 OFFICE OF INSPECTOR GENERAL




        FINAL REPORT

INSPECTION OF THE COMMISSION’S
  OCCUPANT EMERGENCY PLAN




           FEBRUARY 2002

        ASSIGNMENT NO. 01-10

                                  TABLE OF CONTENTS

________________________________________________________________________




Introduction, Objectives and Background..........................................................................2



Scope and Methodology ….....................…............……..........…….................................... 3



Inspection Results...................................................................................................…...........4



Conclusions….…………………………………...……………………………….……….….... 9



Appendix….………………………………….......…………………………………………......10

                INTRODUCTION AND OBJECTIVES
The Office of Inspector General(OIG) completed an inspection of the Federal
Election Commission’s (FEC or Commission) Occupant Emergency Plan.
Federal Property Management Regulations require each Federal agency that
occupies space in a federally-owned or General Services Administration(GSA)-
leased facility to establish and maintain an Occupant Emergency Plan(OEP). An
OEP is a facility's short term response program for safeguarding lives and
property during emergencies. The purpose of our inspection was to assess the
Commission’s emergency preparedness plan and program. Specifically, our
objectives were to:

      (1)      Evaluate the Commission’s OEP to determine whether the plan
            adequately meets all GSA requirements;

      (2)      Determine whether the Commission’s OEP addresses the special
            needs of the physically challenged; and

      (3)      Determine whether the Commission’s OEP is effectively
            communicated to staff.

                              BACKGROUND
Emergency preparedness programs are critical to ensuring the safety and
security of federal employees and visitors. In June of 1995, President Clinton
directed an assessment of all federal facilities to address safety concerns raised
by the April 1995 bombing of the Murrah Federal Building in Oklahoma City.
Robert B. Reich, the Secretary of Labor, additionally affirmed federal managers’
responsibility to ensure that an emergency plan is in effect for each workplace
and that it is frequently updated. Most recently, with the September 11th 2001
terrorist attacks on the World Trade Center and Pentagon, new questions
concerning the status of emergency preparedness of all Federal agencies need
to be addressed.

An OEP is an essential part of an emergency preparedness program. It has two
components. First, there are the procedures to protect life and property in
federally-occupied space under certain emergency conditions. Second, there is
the agency's Occupant Emergency Organization, comprised of employees who
undertake certain responsibilities and perform the specific tasks outlined in the
OEP. In the event of an emergency, properly developed plans can reduce the
threat to personnel, property, and other assets while minimizing work disruption.
The plan must provide guidance for occupants to follow in the event of an
emergency to protect themselves and other personnel within the office, building,
or facility.




                                                                                     2

Personnel safety is the primary concern of any occupant emergency plan.
However, just as important is the protection of the facility, property, and
equipment. For these reasons, all possible situations must be addressed so that
all personnel involved will know what procedures to follow or where to obtain the
necessary information.

GSA’s Federal Protective Service (FPS) is responsible for conducting an annual
review to insure that OEPs are current and adequate. GSA’s specific
responsibilities include issuing emergency program guidance, conducting
physical security surveys, reviewing plans and organizations annually, and
ensuring proper administration of the emergency organization program. Each
federally-owned or GSA-leased facility undergoes an initial security risk
assessment. According to FPS, physical security surveys are completed every
three years for level three facilities such as the Commission.

The FEC’s OEP was jointly developed with the Bureau of Public Debt over 10
years ago. The Commission shares occupancy of the 999 E street building with
the Bureau of Public Debt. The Bureau of Public Debt occupies the third and fifth
floor whereas the FEC occupies the remaining floors. This plan applies to all
employees in the 999 E street building. Commission Directive 40 is the
implementing guidance for the agency’s emergency preparedness program and
OEP. At the Commission, the Staff Director is responsible for managing the
development of the OEP, staffing and the training of the Occupant Emergency
Organization. The FEC’s initial security risk assessment was completed by FPS
in 1992. The agency received another abbreviated security assessment review
in May of 1999.


                   SCOPE AND METHODOLOGY
Our inspection was conducted from October through December 2001. To
accomplish the inspection objectives, we reviewed the FEC’s Occupant
Emergency Plan (OEP) and the applicable federal regulations and laws. Our
inspection included discussions with the Commission’s Physical Security
Specialist, members of the Occupant Emergency Organization, the agency’s
Federal Protective Service Representative and Commission employees. We also
contacted officials at various federal agencies to obtain additional information
regarding emergency plan development and employee evacuation training.
Specifically, we contacted the Agency for International Development,
Corporation for Public Broadcasting, Federal Housing Finance Board, Federal
Labor Relations Authority, Federal Trade Commission, and the National Labor
Relations Board. We conducted a physical observation of the Commission’s
building facility. We also observed practice evacuations (i.e. fire drills).

In addition, we surveyed the Commission staff via a questionnaire to assess their
knowledge of occupant emergency policies and procedures. Of the
questionnaires sent to 91 employees, 30 were filled out and returned, a response




                                                                                 3

rate of 33 percent. Appendixes I and II show the instructions to the respondents,
survey instrument and a sampling of survey results.

We conducted our inspection in accordance with the Quality Standards for
Inspections issued by the Presidents Council on Integrity and Efficiency (PCIE).




                        INSPECTION RESULTS

           COMPLIANCE WITH GSA REQUIREMENTS

Based on our overall assessment of the Commission’s OEP, the OIG determined
that the agency’s emergency plan generally satisfied GSA’s federally mandated
requirements. As required, the agency established and maintained an OEP that
consists of two components: (1) procedures to protect life and property in
federally-owned space during emergency conditions and (2) an Occupant
Emergency Organization comprised of a Command Center Team and Floor
Team Members. However, we found portions of the plan to be inaccurate and
incomplete. We also noted several inadequacies in the Commission’s OEP
which, if taken as a whole, could have a negative impact on the FEC’s
emergency response program. Specifically, we identified the following:

INACCURATE INFORMATION During the inspection, we attempted to verify
vital information contained within the Commission’s OEP such as: contact
numbers for emergency response teams and members of the Occupant
Emergency Organization. The Occupant Emergency Organization members
names and telephone numbers are required to be recorded on the emergency
plan forms. We found that the plan contained inaccurate telephone numbers for
these essential components.

We also noted that the designated relocation site for personnel was inaccurate.
The FEC’s OEP stated that the primary relocation site was in the rear of the FBI
Building. However, the current designated relocation site for employees is the
west side of 10th street, across from Ford’s Theater. In addition to this change
in the primary relocation site, a new alternate relocation site should be
designated and included in the Commission’s OEP as well.

INCOMPLETE INFORMATION Occupant Emergency Plans are, for the most
part, carried out by Floor Teams assigned to each floor of a facility. GSA
guidance states that a Floor Team includes a Floor Monitor, Stairwell Monitors,
Elevator Monitors, Monitors for the Handicapped, and Exit Monitors. While
reviewing the Commission’s plan, we found several unassigned monitor
positions.




                                                                                   4

PHYSICALLY CHALLENGED EMPLOYEE ASSIGNED AS A MONITOR The
agency’s plan listed a physically challenged employee as a 9th floor early monitor.
The OIG believes this assignment is questionable and should be reconsidered.
As stated by GSA guidance, handicap monitors assist physically challenged
persons from their workplaces to the elevator, and out of the building.
Considering this definition, it would not be appropriate to assign a person who is
physically challenged as a monitor.

FIRE DRILL OBSERVATION The OIG conducted a physical observation of a
practice evacuation from the building. During the practice evacuation, we
observed the employees moving from their offices to the stair wells and out of the
building. Members of the Occupant Emergency Organization assisted in the
evacuation of each floor. We noted that monitors are not assigned to the lobby
area to assist staff as they exit the building or direct the employees as they leave
the facility during an evacuation. Also, employees did not utilize both lobby doors
during the evacuation.

NO FORMAL PROCESS EXISTS TO REVIEW, UPDATE, TEST AND
APPROVE OEP We found that portions of the Commission’s OEP were
incomplete or inaccurate because no formal process was in place to update,
review, test and approve the agency’s OEP. The accuracy of the information
contained in the OEP is essential to the successful implementation of emergency
procedures. It is imperative that the plan is updated to reflect the most current
information possible.

GSA guidance suggest that federal agencies conduct debriefings or “lessons
learned sessions” with the members of the Occupant Emergency Organization
periodically after an evacuation or practice drill. Sessions such as these could
provide vital insight to enhance the agency’s emergency plan and procedures.
Management should also ensure that Floor Monitors are aware of their
responsibilities as they relate to keeping the Commission’s emergency plan
current. Federal policy states that a frequent comprehensive review of the OEP
should be performed to verify and validate the information contained within the
agency’s plan.

To be effective, a plan must be tested. Evacuation test procedures assist the
monitors in becoming familiar with their duties and give occupants an opportunity
to experience how an evacuation will transpire. To ensure that alarms, signals,
and other methods of communication are in working order, periodic tests of the
system may be conducted without an evacuation. Federal regulations advise
facilities that experience a high rate of employee turnover or temporary hires,
such as the FEC, to consider semi-annual drills.

While the Commission actively participates in practice evacuation drills, the
evacuation results are not documented. According to the GSA’s FPS, it is a
generally accepted practice to critique an evacuation test and make any




                                                                                   5

appropriate changes to the OEP. Elements which should be measured during a
test include: the time it took to evacuate, the efficiency of the evacuation, the
functioning of the monitors and teams, and the overall success of evacuating
everyone from the building. If the test identified deficiencies, the OEP should be
adjusted and/or additional training should be provided to ensure a workable
emergency plan.

The OIG suggested the following to improve the Commission’s OEP: (1) utilize
the GSA checklist to ensure compliance with federal regulations; (2) conduct a
debriefing or “lessons learned” session with the members of the Occupant
Emergency Organization after each evacuation drill and ensure that evacuation
test results are documented; (3)assign monitors to the lobby area to assist staff
as they exit the building during emergency evacuations and ensure that
Commission employees utilize both lobby doors during evacuations; (4) develop
a formal process to update, test, and approve the OEP, as well as, amend
Commission Directive 40 to include requirement to update the OEP periodically;
and (5) continue to examine and evaluate building security (i.e the way the
agency controls movement around, and in/out of the building).

We discussed our suggestions with management and they agreed to implement
actions to satisfy most of our suggestions. In fact, several of the suggestions
have already been implemented. Specifically, management decided to
update/modify the OEP quarterly, utilizing the GSA checklist, to ensure the
accuracy of the information contained in the plan. Commission Directive 40 was
revised to include this requirement. Additionally, members of the Occupant
Emergency Organization will be required to attend quarterly meetings to discuss
the Agency’s emergency plan and procedures. The vacant monitor positions
have been filled and the 9th floor early monitor position was reassigned also. In
response to the OIG fire drill observation findings, management has agreed to
ensure that members of the Control Center and first Floor Team direct staff while
exiting the building to use both front doors.


 OEP DOES NOT ADDRESS THE SPECIAL NEEDS OF THE
            PHYSICALLY CHALLENGED
As part of our review, we examined the agency’s OEP to determine whether the
special needs of the Commission’s Physically Challenged were addressed. We
found that the Commission’s plan lacked specific detailed plans to address their
individual needs.

According to federal guidelines, individuals with disabilities, who require
assistance, should be identified in the planning process. A monitor should be
assigned to each individual to assist him/her in evacuating the area. However,
we found that at the time of our inspection, some of the Commission’s physically
challenged personnel did not know who had been assigned as their monitor.




                                                                                     6

Emergency evacuations can be handled most effectively if people know the
procedures established. In the case of the physically challenged, these
procedures should be communicated in sufficient detail so a person “knows what
to do” in an emergency evacuation. These detailed procedures and designated
elevator locations should be communicated in writing to the physically challenged
staff. None of the physically challenged staff interviewed had received written
emergency evacuation procedures. Furthermore, during our inspection of the
OEP, we found that the Commission’s plan does not include detailed evacuation
plans for the physically challenged employees.

We discussed our concerns with management. They stated that since the
September 11th tragedy, a significant amount of effort has been expended to
ensure that the Commission’s physically challenged persons are aware of who
their monitors are and their specific evacuation procedures. Several attempts
have been made to meet with each person after practice drills to verify their safe
and smooth evacuation from the building. In addition, all handicap monitors have
been provided walkie-talkies.

The OIG believes that continued efforts by management to meet with physically
challenged staff will affirm the agency’s commitment to meeting their specific
needs. In addition, management should develop detailed emergency procedures
that meet the individual needs of the Commission’s physically challenged.
Specific evacuation procedures and designated elevator locations should be
communicated in writing to the physically challenged staff and their assigned
monitors. Actions such as this should eliminate confusion, doubts and most
concerns of the physically challenged staff.

         OEP NOT EFFECTIVELY COMMUNICATED TO
                   COMMISSION STAFF
The primary goal of a facility's short term response program is to move
individuals from the danger area as safely and rapidly as possible. Good
communications are necessary to get the proper word to the appropriate people
to avoid confusion. Furthermore, if employees have been well trained, they are
more likely to survive an emergency incident. Based on our survey questionnaire
results, we believe that several aspects of the Commission’s OEP had not been
effectively communicated to the staff. Our survey results indicated a high level of
uncertainty regarding workplace safety and emergency preparedness. At the
time of our survey, over 63% of the survey respondents indicated that they were
skeptical about the agency’s emergency plan, policies, and procedures.

Emergency preparedness guidelines suggest that the basic elements of an
agency’s OEP, such as evacuation route maps, be posted on bulletin boards and
the evacuation procedures repeated through training. Evacuation route maps and
the proper alarm system devices are critical in an emergency evacuation. GSA




                                                                                  7

guidance also states that a list of emergency telephone numbers be made
available to all employees. Whereas, our survey respondents indicated that
evacuation routes were not posted in the hallways of the Commission. Nor were
important emergency contact information and telephone numbers posted
throughout Commission. Several survey respondents, however, expressed
concern relative to alternate evacuation routes due to the Commission’s close
proximity to the FBI Headquarters.

Key personnel, such as the members of the Occupant Emergency Organization,
must know which procedures are to be used so that the occupants can be quickly
notified and directed to the proper location. Through subsequent interviews with
several Floor Team Monitors, we noted inconsistencies in the amount of training
each monitor had received. Some of the Floor Monitors indicated that they had
received some training at the Floor Monitor meetings. Others reported that they
had never attended any meetings and had not received any emergency
preparedness training. According to GSA’s FPS, it is generally accepted practice
that Occupant Emergency Organizations be trained at least once a year.

The OIG believes that all Commission employees need to learn through training:
how to identify potential risks; how to intervene if it is within the employee’s
ability; how to avoid danger; and how to react when it occurs. We found that the
majority of the survey respondents (97%) had never received any emergency
evacuation training other than participating in annual fire drills.

To effectively provide the Commission’s staff with vital information contained in
the OEP, the OIG discussed with management several suggestions for
improvement. We advised management to: (1) post evacuation routes and
emergency contact numbers on bulletin boards and corridors through
Commission, (2) list important emergency numbers in Commission staff
telephone directory, (3) conduct a semi-annual meeting to update/train
Organization Employee Organization members on emergency preparedness
procedures to ensure that floor monitors know their assigned responsibilities, (4)
develop and conduct a emergency evacuation training session for the
Commission staff (5) develop a system for the timely inflow and outflow of
information which includes what activities should be taken to return to work, (6)
brief new employees on appropriate evacuation/emergency procedures during
new employee orientation to ensure that they receive accurate information, and
(7) conduct evacuation drills using both the primary and alternate evacuation
routes.

While performing the inspection of the Commission’s OEP, management revised
and modified the agency’s emergency plan. Dust masks, Emergency Response
Team(ERT) post-its, flashlights, CPR shields and additional walkie-talkies were
purchased and distributed for use during emergency situations. We applaud the
enormous efforts extended by management to strengthen the agency’s
emergency preparedness program. The amount of work put into developing a




                                                                                     8

comprehensive emergency plan was evident when the FEC preparedness
program was compared to other federal agencies. Most of the agencies
contacted by the OIG had such no plan.

Several of the OIG’s suggestions have already been implemented to more
effectively communicate emergency evacuation procedures to the Commission’s
staff. As recommended, management developed and conducted briefings for
employees on each floor. The briefing included a review of the evacuation
procedures and the items purchased to assist in an evacuation. A GSA video
was played for all attendees on the roles and responsibilities of the Floor Team
members as well.

In addition, management developed a FEC Broadcast System, and an
Emergency Hot Line number for the timely inflow and outflow of emergency
evacuation information. The names of the Occupant Emergency Organization,
telephone numbers, and emergency evacuation route maps have been posted
throughout the Commission as suggested by OIG. Also, Commission Directive
40 has been added to the FEC-wide share drawer to allow all Commission staff
to read and/or print the plan at any time.

Furthermore, management agreed to conduct semi-annual training meetings to
provide current evacuation information to the monitors and review/update the
OEP on a quarterly basis. If modifications are necessary, revisions will be made
available to all plan holders. Management has also decided to conduct a
evacuation drill using the alternate evacuation route.

The OIG believes that the management’s planned and completed actions will
provide Commission employees the essential information needed to successfully
evacuate the building during emergency situations.


                              CONCLUSION

Since the recent terrorist attacks on the World Trade Center and Pentagon,
Commission employees have expressed increased anxiety and concerns
regarding workplace safety and emergency preparedness. The OIG commends
management’s efforts to continually update and maintain an effective OEP. We
believe that persistent efforts to improve the agency’s emergency program,
address the concerns of the physically challenged, as well as, the
implementation of the OIG suggestions will provide for a more comprehensive
and workable Occupant Emergency Plan.




                                                                                   9

                                                                 APPENDIX I

________________________________________________________________________

             Occupant Emergency Plan Survey Instructions


The Office of the Inspector General is currently conducting an inspection of
the Commission's Occupant Emergency Plan. The primary objectives of the
inspection are to:

   •	 Evaluate the Commission's Compliance with GSA's Occupant
      Emergency Plan requirements and policies and

   •	 Determine whether the Agency's Emergency Plan addresses the
      special needs of the physically challenged and is effectively
      communicated to Commission staff.

Emergency preparedness is critical to ensuring the safety and security of
federal employees and visitors. In order to gather data concerning the staff's
current knowledge of the Commission Emergency Plan, we have developed
the attached survey.

We would like to solicit your input. Please print and fill out the attached
survey. Completed surveys can be placed in the interoffice mail to the OIG.

If you have any questions or concerns, feel free to contact me at ext.1019 or
Lynne Mc Farland at ext. 1015. We would like to thank you for your time
and assistance with this project.




                                                                             10

                                                      APPENDIX II
___________________________________________________________________

                    OCCUPANT EMERGENCY PLAN SURVEY

To whom should you report an unlawful act or crime?

What should you do if you receive a bomb threat?

Rate your knowledge/familiarity with the agency’s emergency evacuation plan from 5
(very knowledgeable and confident ) to 1 (high level of uncertainty) .

       (63% of the survey respondents reported that they were unsure about the
       agency’s emergency plan, policies and procedures)

Where do you stand once you leave the building during a fire drill?

       Over 23% survey respondents stated that they usually stand in front of the FBI
       building even though this is no longer a designated personnel relocation site.
       Commission employees are still unclear as to where they are to go once they
       evacuate the building.

What visual identifier is used to denote a monitor?
Are monitors visible and helpful?

       27% of the survey respondents did not know what visual identifier is used to
       denote a monitor. (orange hat) 40% did not feel that the monitors were
       visible and/or helpful.

Do you know where the closest fire alarm box and fire extinguisher is located?

Where should you evacuate to if the front of the building is blocked or unattainable?

During an emergency, what stairwell should you use?

During an emergency, if you found that your assigned stairwell is blocked, what would
you do? Are you aware of alternate emergency routes?

Are you familiar with the FEC’s fire reporting procedures? Who should be notified if an
alarm was activated due to fire on your floor?

Are emergency evacuation routes or telephone numbers clearly posted on a bulletin
board, corridor or anywhere throughout your floor?




                                                                                        11

       Respondents indicated that emergency evacuation routes and telephone
       numbers are not clearly posted on bulletin boards, corridors or anywhere
       throughout the Commission.

What medical resources are available and how to reach them?

       Although the survey respondents are aware of the medical resources provided
       by the nurses on duty, very few employees know which staff members are
       certified in CPR.

Are you aware of the first aid/CPR services available here at the FEC?

Have you ever received any type of emergency evacuation training other than
participating in fire drills?

       97% of the survey respondents had not received any emergency evacuation
       training other than participating in fire drills.

Do you have any additional concerns or issues not addressed above? Suggestions?




                                                                                     12

